September 25, 2000
Audit Report No. 00-043


Audit of DIRM’s Actions to Ensure
Quality Products
Federal Deposit Insurance Corporation                                                          Office of Audits
Washington, D.C. 20434                                                             Office of Inspector General



   DATE:         September 25, 2000

   TO:          Donald C. Demitros, Director,
                Division of Information Resources Management and Chief Information Officer


   FROM:         David H. Loewenstein
                 Assistant Inspector General

   SUBJECT: Audit of DIRM’s Actions to Ensure Quality Products
           (Audit Report No.00-043)

   The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General has completed an
   audit of the FDIC’s activities to ensure quality information systems. The overall objective of this
   audit was to determine the effectiveness of the Division of Information Resources Management's
   (DIRM) quality assurance (QA) activities related to the development and implementation of
   information and financial systems. While prior audits addressing systems development efforts have
   generally been comprehensive reviews related to the management of a specific project, this audit
   focused on overall DIRM activities to ensure quality deliverables and identified several
   opportunities for improvement.


   BACKGROUND

   The purpose of quality assurance (QA) in the systems development arena is to ensure the delivery
   of quality systems that meet users’ needs in a timely and cost-effective manner. Prior to 1998, a
   small group within DIRM’s Management Review Section administered a QA program. This group
   has since been abolished and the associated DIRM circular on QA rescinded. According to DIRM
   officials, these actions were based on a decision to eliminate a centralized QA function and increase
   the responsibility and accountability of DIRM Project Managers and line managers for delivering
   quality systems.

   The need for effective QA has been illustrated by prior systems development projects that were
   often delayed or not fully successful. DIRM’s reliance on contractor support for systems
   development efforts and today’s more complex information technology (IT) infrastructures increase
   the challenges associated with developing effective systems that meet user needs and are delivered
   in a timely manner. During 2000, DIRM plans to spend as much as 59 percent of its personnel-
   related expenditures for outside contractors. The use of contractor personnel can impact quality
   because of: (1) the lessening of FDIC's control over the process, (2) increased risk of personnel
   turnover during the project, and (3) the fact that contractor personnel are less familiar with the
   FDIC’s practices and business activities. Further, today’s systems development activities are taking
place in an environment of increasingly more complex and rapidly changing technology. The IT
infrastructures used in today’s distributed systems require that systems developers successfully
interface a variety of computer environments and software technologies.
A strong QA program supports project managers and line managers in ensuring effective
coordination among the various DIRM organizational components needed to support today’s
development projects.

QA related to information systems development includes two key components: (1) verification that
work products are complete and comply with systems development policies and procedures and (2)
validation by the client that the work products reflect their needs. A QA program consisting of
these components addresses the quality of the planned system and the development process being
used to create it. Verification determines the degree of clarity, traceability, internal consistency, and
completeness for each of the products developed during the life cycle phases. An important aspect
of verification is determining the degree of compliance with system development life cycle (SDLC)
documentation standards. FDIC's standards are published in the FDIC SDLC Manual, a
comprehensive set of instructions that describe required processes and documentation for each of
the development phases. Validation determines whether each of the products captures the client’s
expectations. Although the most common form of validation is system testing near project
completion, effective validation addresses the completeness and accuracy of work products
throughout the development process. Validation is typically performed by client personnel, i.e.,
representatives of those who will be using the system. However, it may also be performed
independently, often by contractors. Independent validation would normally be performed only in
particularly large-scale, critical projects.


OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine the effectiveness of DIRM’s QA practices regarding
systems development projects. We did not attempt to determine the overall degree of success of
individual projects. Accordingly, the scope of this audit did not include project planning and
administration, but instead focused only on the quality assurance activities related to the developed
work products. The work products addressed in this audit were those produced in four of the eight
phases of the SDLC. These are the requirements definition, external design, internal design, and test
phases. These associated work products are developed during these phases as described below.

•   Requirements Definition Phase - In this phase, user needs are analyzed and user requirements
    are formally defined. These requirements include system functionality, data requirements,
    system performance, security, and maintainability.

•   External Design Phase - In this phase, the external physical characteristics of the application
    system are designed, including the operating environment, user controls such as menus and
    graphical interfaces, and system outputs such as screens and reports.

•   Internal Design Phase - In this phase, a detailed structure of the system is designed, the system
    is partitioned into one or more modules, and detailed logic specifications are prepared for each
                                                   2
    module. An initial Conversion Plan is developed that documents the strategy for converting
    from an existing system to the new system.

•   Test Phase - In this phase, DIRM and system clients perform tests. DIRM performs tests of
    the individual system components, followed by DIRM and the client together testing the system
    as a whole.

To accomplish the audit objective, we reviewed seven ongoing or recently completed projects and
three completed projects that we had previously audited. Regarding the latter, we limited our
review to the audit reports and related working papers. For the ongoing or recently completed
projects, we reviewed documentation and interviewed key project personnel. In evaluating the
thoroughness of test phase activities, we selected samples of detailed systems’ requirements and
traced them to associated test scenarios. The three completed systems selected for our review were
the General Examination System (GENESYS 1.0), Time and Attendance Processing System
(TAPS), and Electronic Travel Voucher Processing System (ETVPS). We selected the other seven
projects for review based on suggestions from DIRM officials, the need to cover a diversity of
client organizations, and the need to ensure adequate audit coverage for each of the development
phases. The current or recent projects reviewed were the (1) Assessments Information
Management System (AIMS II), (2) Electronic Procurement Request and Invoicing System
(EPRIS), (3) General Examination System (GENESYS 2.0), (4) National Asset Information
System (NAIS), (5) Statistical CAMELS Offsite Rating System (SCOR), (6) Structure
Information Management System (SIMS), and (7) System of Uniform Reporting of Compliance
and CRA Exams (SOURCE). We do not refer specifically to these projects by name in the text of
this report; however, we shared our observations on each project with the respective Project
Managers.

This audit included system development activities occurring over approximately 3 years beginning
in 1997. We conducted the audit between February and May 2000 in accordance with generally
accepted government auditing standards.


RESULTS OF AUDIT

Effective QA for system development projects helps to ensure consistent quality and timeliness of
project deliverables. Without an effective, comprehensive QA process, project success is overly
dependent on the knowledge, experience, and capabilities of the DIRM Project Manager. We
identified opportunities for DIRM to improve overall QA effectiveness by formalizing certain
processes related to verification of contractor work products and ensuring compliance with SDLC
requirements. These opportunities are based, in part, on best practices of DIRM Project Managers
that were identified during the audit.

Our review of DIRM's verification of contractors’ work products noted inconsistencies in the extent
of review performed by the responsible Project Managers. As a result, the accuracy and
completeness of the work products varied. However, we noted one ongoing project for which the

                                                3
Project Manager placed particular emphasis on reviews of contractor-provided work products. We
believe that this focus contributed to the high quality of deliverables for this project and the rapid
progress toward project completion.

The emphasis given to verification can affect the degree of compliance with the FDIC's SDLC
documentation standards. We noted that the degree of compliance varied by individual SDLC
phases and those project phases with the better levels of compliance were the Requirements
Definition and Test Phases. Substantial improvement is needed for compliance in the External
and Internal Design phases. The needed improvements include a more adequate description of the
proposed technical architecture and enhanced guidance regarding when and how the External
Design Document and the Internal Design Document can be combined. We also noted a number of
other departures from the SDLC standards relating to missing documentation, links between the
Test Plan and the Functional Requirements Document, and missing elements in the Internal Design
Document.

In prior audits of two of the earlier development projects, we had noted insufficient validation of
requirements by the project team. However, for all current projects reviewed, the project teams
were consistently validating users' requirements. This change was due, in part, to the teams more
consistently following a practice of developing requirements on an incremental basis and iteratively
reviewing portions with client personnel. In addition to such validation efforts performed by the
project team and client personnel, specific situations can dictate the need for independent
validation. Sometimes it is prudent to use an independent validation process where the
development effort will support a large or varied user population. Another indicator of the need for
independent validation is whether there has been a long duration required for the development
effort during which time there has been a significant turnover of client representatives and/or major
changes to the client's business practices. For the current projects reviewed, we did not identify any
projects meeting such criteria and thereby pointing to the need for independent validation.



CONSISTENT VERIFICATION OF CONTRACTORS' WORK PRODUCTS NEEDED

DIRM Project Managers and staff were not consistent in the level of verification they applied to
contractor work products. Verification is the review process to ensure that development work
products are clear, traceable to other documents, consistent, and complete. For one project, the
DIRM project team did not effectively communicate with contractor staff to ensure that user
requirements were completely defined and all design issues were resolved. For another project, the
DIRM project team did not verify the contractor’s work products before forwarding them to the
client. Instead, the contractor followed a practice of releasing portions of deliverables
simultaneously to the DIRM project team and the client. The contractor also communicated
independently with the client staff. In order for the DIRM Project Manager to exercise full
responsibility for ensuring thorough verification of contractor work products, this individual should
be involved in all communications between contractor development personnel and the client.



                                                  4
Because DIRM extensively uses contractor-supplied resources for systems design and development
work, the need for work product verification by DIRM project personnel is increased. The FDIC
Acquisition Policy Manual directs that DIRM, as the organization responsible for project
management, should review all work products received from contractors. Such review is best
performed before forwarding deliverables or portions thereof to the client
organization for additional review, because DIRM's focus is on verifying overall completeness and
quality while the client's focus is on validating whether the proposed system will meet its
needs. Also, DIRM participation in all communications between the client and the contractors will
increase DIRM’s ability to effectively verify resulting documentation.

We found that DIRM verification contributed to the overall progress of projects toward completion.
For example, for one of the current projects, DIRM verification was particularly emphasized. As a
result, this project was on schedule and progressing toward completion. This project also had a
large contingent of DIRM employees to perform the verification function. Conversely, we noted
that for a project where DIRM had not devoted as much effort to verification steps, there were
delays in progress towards completion. This project was also not as fully staffed with DIRM
employees insofar that it had only one DIRM employee, the Project Manager, assigned. Also, for
this project, the role of verification was shared with the client organization, resulting in a lessening
of control by the DIRM project team. This, in turn partially contributed to the "requirements creep"
experienced. That is, the requirements definition phase was prolonged, and major delays in
progress toward project completion occurred as a result. The delays caused the requirements
definition and the design phases to extend for a greater time period than was originally intended for
the entire project.


VERIFICATION THAT WORK PRODUCTS ADHERE TO SYSTEM DEVELOPMENT
LIFE CYCLE STANDARDS NEEDS IMPROVEMENT

An important element of verification involves ensuring adherence to SDLC documentation
standards. Our review found that the quality of project documentation supporting development
projects could be improved. We noted that certain required components of documentation were
either absent, incomplete, or not developed in the proper chronological sequence. For the
Functional Requirements Document, greater detail was needed in describing the proposed business
process to be automated, and traceability matrices were not always developed. For the External
Design Document, greater detail was needed in descriptions of the proposed technical architecture
and more guidance could clarify when and how the External Design Document and the Internal
Design Document could be combined. A number of other significant, but less frequent departures
from the SDLC standards were also noted.

The FDIC's SDLC Manual establishes documentation standards, the purpose of which are to
provide guidance to ensure the delivery of quality systems that meet user needs in a timely and cost-
effective manner. As stated in its introduction, "The FDIC SDLC Manual is a tool that lends
consistency to the process, products, and terminology which should be used to develop or maintain
FDIC systems. It ensures sound communication and mutual understanding of SDLC processes
between DIRM and the user."
                                                   5
Effective QA in the form of verification of compliance with established procedures can enhance a
project's success. Such oversight is critical due to the pressures to deliver products to clients and,
therefore, occasional tendencies to shortcut the SDLC process. Non-compliance with
established procedures can also occur when requirements are misinterpreted. Enhanced
specificity and increased use of illustrative examples could serve to reduce such misunderstandings.


Requirements Definition Phase

We identified six development projects that we believe would have benefited from improved
documentation during the Requirements Definition Phase. Two development projects would have
benefited from an improved Functional Requirements Documents (FRD). The assurance of
success for two other development projects would have been increased if the project team had
developed a traceability matrix, a tool that connects the FRD to a related test plan. Finally, the
project teams for two earlier projects initiated design and development work before FRDs were
completed and approved, the consequences of which have been presented in the related audit
reports. For the current projects, we cannot presently comment on the effects of cited
documentation shortcomings because additional time would be required for such effects to present
themselves. Discussion of needed documentation improvements follows.

•   Improved Functional Requirements Document: For one of the projects reviewed, an
    improved FRD would have benefited the project by more clearly describing the proposed
    methods for addressing the client’s business process requirements. The lack of clarity
    contributed to the resulting FRD not addressing all existing business processes or how they
    would be improved by the new system. For another project, the FRD did not describe a major
    business process to be supported by the planned system. As a result, the development team was
    forced to re-analyze the process after the departure of a contract employee who had acquired,
    but not documented, the business process to be supported.

•   Traceability Matrix: In addition to a Functional Requirements Document, the SDLC Manual
    requires the development of a system test plan during the Requirements Definition Phase,
    including a traceability matrix linking requirements to the individual test scripts prepared later
    in the project. Test plans for two of the projects reviewed did not include a traceability matrix,
    reducing assurance that all functional requirements were addressed and adequately tested.

•   Complete, Approved Functional Requirements Document: For two previously audited
    development projects, the project team proceeded with design and development work prior to
    the completion and approval of an FRD. For one of these projects, the project team revised
    certain requirements after design and development had commenced. Project personnel
    determined that the changes in requirements would require re-performing as much as        90
    percent of design and development work that had been completed.




                                                   6
    In our audit of another previous development project, we were informed that the delays in
    completing and approving the FRD were intentional inasmuch that the project team was
    employing the concept of evolutionary prototyping. DIRM agreed with our audit
    recommendation to evaluate and clarify when evolutionary prototyping can be used to reduce
    development schedules. We did not identify any current projects where development
    preceded the completion of the FRD. However, DIRM has not yet issued its clarifying
    guidance.


External Design Phase

We identified five projects that would have benefited from improved documentation during the
External Design Phase. For one project, the External Design Document lacked several important
components required by the SDLC Manual. In three other projects, including one of the projects
receiving a prior audit, the descriptions of the proposed technical architecture were not sufficiently
detailed to properly facilitate reviews for feasibility and suitability. For another project,
components for the External Design Document and the Internal Design Document were
inappropriately combined, thereby prolonging the period required for the client to review and
approve the system design. Discussion of possible improvements during the external design phase
follows.

•   Missing Required Components: The External Design Document for one project did not
    include all critical components required by the SDLC Manual, including the user interface
    screen designs and the output report layouts. These were later included in the Internal Design
    Document. However, the SDLC Manual requires end-user oriented components such as these
    to be included in the External Design Document which is prepared earlier in the project before
    other detailed design and development work commences. Also for this project, the traceability
    matrix in the External Design Document referenced only a few of the requirements earlier
    defined in the Functional Requirements Document. A complete traceability matrix is essential
    in providing support for the External Design Document review and approval process.

•   Technical Architecture Descriptions: For three projects, including one of the projects
    previously audited, the proposed technical architecture was not fully described. The need for
    complete and accurate architecture documentation is critical in today’s complex and rapidly
    changing technical environment. Today’s systems are increasingly based on distributed
    technology that makes use of a variety of software technologies that must be successfully
    interfaced with one another. The feasibility and suitability of the technical architecture to be
    employed for a given project has to be carefully considered and reviewed by a variety of
    technical specialists. This is particularly critical because planned configurations often contain
    features or software that have not yet been applied to other projects. The costs of making
    changes to the technical architecture at a later stage of system development can be substantial
    because of the need to re-perform work.

•   Combined External and Internal Design Documents: For six of the current projects
                                                   7
    reviewed, the components required for an External Design Document were combined with
    those for the Internal Design Document and a single, Technical Design Document was
    produced. With the exception of one project, this practice did not appear to be detrimental to
    effective project management because the other projects were relatively limited in scope or did
    not require an overly lengthy period for design and development. However, for one of the
    larger scale projects reviewed, combining documents contributed to a 20-month period for the
    client to review and formally approve all needed functionality. By first providing the
    client with a separate External Design Document, a document which contains most of the
    information the client needs to review and approve, this time period may have been reduced.
    For one of the projects using the combined document approach, two virtually identical
    documents were issued, one designated as an External Design Document and the other as an
    Internal Design Document. Further, neither document was signed off by client representatives
    until completion of the development phase. These signoffs should have been obtained prior to
    commencing work on the development phase. The Project Manager could not provide a clear
    reason for the redundancy or the timing of document approval.
    Postponement of signoffs by the client increases the risk that system programming will proceed
    incorrectly leading to later re-work and additional costs.

•   Guidelines for Combining Documents: As stated previously, we did not always find it to be
    detrimental to effective project management to combine the External Design and Internal
    Design phases for those projects which were relatively limited in scope or did not require an
    overly lengthy period for design and development. Additionally, it is our opinion that this
    methodology can be successful when a proposed system can be broken down into clearly
    defined, independent functional modules. In such cases, internal design work can go forward
    on some modules while external design work is still in progress in other modules. In some
    cases, this practice can even be extended into the development phase. Because these
    distinctions are not addressed in the SDLC Manual, what is needed are guidelines for use by
    project management in deciding if and how a project may proceed with overlapping SDLC
    phases.


Internal Design Phase

We noted needed Internal Design documentation improvements for only one project. However, the
needed improvement was significant, i.e., an important component was missing from the Internal
Design Document. Specifically, the Internal Design Document should have contained detailed
descriptions of the internal logic to be employed, either graphically or in pseudo code using
previously defined data elements. Such information is intended to provide the final bridge between
requirements analysis and actual computer programming in describing the logic necessary to
correctly write source code for all design units in the system. The absence of internal logic
descriptions increases the likelihood that program bugs will reside in the completed system.




                                                 8
RECOMMENDATIONS

We recommend that Director, DIRM, and Chief Information Officer:

(1) Issue guidance to Project Managers describing their responsibility to ensure quality work from
    contractors. Such guidance should stress the importance of the DIRM project team verifying
    the completeness, accuracy, and consistency of deliverables or portions thereof prior to
    forwarding them for validation by the client. Included should be a requirement to ensure that
    contractor-provided development personnel do not communicate directly with
    clients without the knowledge of the Project Manager.

(2) Clarify the SDLC Manual or issue supplemental instructions regarding distinctions between the
    documents produced for the External Design Phase and the Internal Design Phase, when
    documents produced for these phases can be combined, and how the IT infrastructure and
    related issues should be described.

(3) Clarify the SDLC Manual or issue supplemental instructions regarding the circumstances in
    which it would be permissible (a) for design and development work to proceed pending
    approval of the Functional Requirements Document and, once the Functional Requirements
    Document has been approved, (b) for the project team to commence work on the development
    phase without having completed the design phase.



OTHER ISSUES

We did not identify any recent or current development efforts that required independent validation
efforts. However audits of earlier development projects illustrated the need for independent
validation efforts when certain conditions are present. Specifically, development efforts intended to
support a large or varied user population and development efforts of a long duration that may result
in a turnover of client representatives are examples of instances that may require independent
validation efforts. Because of the benefits that may sometimes accrue from independent validation,
we suggest that DIRM develop guidelines for its Project Managers describing when to consider
independent validation of user requirements across the various development phases.

As discussed earlier in this report, DIRM had eliminated its centralized QA function based on a
decision to increase the responsibility and accountability of project managers and line managers for
delivering quality systems. However, during the course of this audit, DIRM management has
decided to further support the role of project and line management in producing quality products by
implementing a new configuration and quality management function. This is to be embodied in a
new Configuration and Quality Management group. This action came to our attention in conducting
the Audit of Configuration Management (report no. 00-038) and we will be performing additional
audit work pertaining to QA in the context of this new organization.



                                                 9
CORPORATION COMMENTS AND OIG EVALUATION

On September 14, 2000, the Director, DIRM, provided a written response to the draft report that
concurred with the recommendations. These comments are included as appendix I. The
Corporation's response to the draft report provides the elements necessary for management
decisions on the report's recommendations. Appendix II presents management's proposed action on
our recommendations and shows that there is a management decision for each recommendation in
this report.




                                              10
                                                                                   APPENDIX I
Federal Deposit Insurance Corporation
3501 North Fairfax Dr., Arlington, VA 22226                           Division of Information Resources Management



                                               September 14, 2000


TO:                    David H. Loewenstein
                       Assistant Inspector General



FROM:                  Donald C. Demitros, Director

SUBJECT:               DIRM Management Response to the Draft OIG Report Entitled, "Audit of DIRM’s
                       Actions to Ensure Quality Products”



The Division of Information Resources Management (DIRM) has reviewed the subject draft audit
report and generally agrees with the findings and recommendations.

The OIG's recommendation along with DIRM's response is provided below:

OIG Recommendation:

           We recommend that Director, DIRM, and Chief Information Officer:

           (1) Issue guidance to Project Managers describing their responsibility to ensure quality
               work from contractors. Such guidance should stress the importance of the DIRM
               project team verifying the completeness, accuracy, and consistency of deliverables or
               portions thereof prior to forwarding them for validation by the client. Included should
               be a requirement to ensure that contractor-provided development personnel do not
               communicate directly with clients without the knowledge of the Project Manager.

           (2) Clarify the SDLC Manual or issue supplemental instructions regarding distinctions
               between the documents produced for the External Design Phase and the Internal Design
               Phase, when documents produced for these phases can be combined, how the IT
               infrastructure and related issues should be described.

           (3) Clarify the SDLC Manual or issue supplemental instructions regarding the
               circumstances in which it would be permissible (a) for design and development work to
               proceed pending approval of the Functional Requirements Document and, once when
               the Functional Requirements Document has been approved, (b) for the project team to
               commence work on the development phase without having completed the design phase.


                                                      11
DIRM Response:

     DIRM concurs with the recommendations and will prepare and issue supplemental
     guidance in accordance with the recommendations. The guidance will address the
     following:

     (1) Description of the responsibilities of Project Managers to ensure quality work from
         contractors, stressing the importance of the DIRM project team verifying the
         completeness, accuracy, and consistency of deliverables prior to forwarding them for
         validation, and including a requirement that contractor-provided development personnel
         do not communicate directly with clients without the knowledge of the Project
         Manager.

     (2) Clarifying the distinctions between the documents produced for the External design
         Phase and the Internal Design Phase, when documents produced for these phases can be
         combined, and how the IT infrastructure and related issues should be described.

     (3) Clarifying circumstances in which it would be permissible (a) for design and
         development work to proceed pending approval of the Functional Requirements
         Document and (b) once the Functional Requirement Document has been approved, for
         the project team to commence work on the development phase without having
         completed the design phase.

     DIRM will issue the proposed guidance by January 31, 2001.

     If you have any questions, please contact Rack Campbell, DIRM's Audit Liaison, at
     (703) 516-1422.


     cc:    Vijay Deshpande, OICM
            Wayne Gooding, DIRM
            Martha Adams, DIRM
            Janet Roberson, DIRM




                                             12
                                                                                                                 APPENDIX II
                               MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several
conditions are necessary. First, the response must describe for each recommendation

   ! the specific corrective actions already taken, if applicable;
   ! corrective actions to be taken together with the expected completion dates for their implementation; and
   ! documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for
any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The
information for management decisions is based on management’s written response to our report.




                                                                        13
                                                                               Documentation                     Management
  .                                                            Expected       That Will Confirm   Monetary       Decision: Yes
Number    Corrective Action: Taken o Planned/Status         Completion Date     Final Action      Benefits          or No
         DIRM will prepare and issue supplemental
         guidance to ensure quality work from contractors
         stressing the importance of the DIRM project
         team verifying the deliverables prior to                                                    Not             Yes
  1                                                            01/31/01       Directive or Memo
         forwarding them to the client and including a                                            Quantifiable
         requirement that contractor- provided personnel
         do not communicate directly with clients without
         knowledge of the Project Manager.
         DIRM will prepare and issue supplemental
         guidance to clarify the distinctions between the
         documents produced for the External Design
                                                                                                    Not
  2      Phase and the Internal Design Phase, when             01/31/01       Directive or Memo
                                                                                                  Quantifiable       Yes
         documents produced for these phases can be
         combined, and how the IT infrastructure and
         related issues should be described.
         DIRM will prepare and issue supplemental
         guidance to clarify circumstances in which it                                               Not
  3                                                            01/31/01       Directive or Memo                      Yes
         would be permissible for concurrent work                                                 Quantifiable
         among several phases.




                                                                  14
